WAIVE

preme Court, U.S.
FILED

AUG 0 2 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED ST TES
No.

21-5247
Dylon Radtke

Wallace Hammerle

(Respondent

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:
'6/02/21

Date:

(Type or print) Name

ohn A. Blimling
Mr.

0 Mrs.

0 Ms.

0 Miss

•

/_isconsin Department of Justice

Firm
Address

17 West Main Street, Post Office Box 7857

City & State

Madison, Wisconsin

Phone

608-267-3519

Zip 53707-7857
Email blimlingja@doj.state.wi.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Wallace Hammerle #182685, Redgranite Correctional Institution
cc:

- RECEIVED
AUG 1 6 20211
OFFICE-OPTHEOCRK
SUPREME COURT, U.S.

